          :                             Department of Energy
.             /                              Washington. DC 20585

                                            Janvary 11, 2005

     MEMORANDUM FOR THE CHAIRPERSONS, I-MANAGE EXECUTIVE
                    STEERING COMMITTEE


     FROM:                     William S. Maharay
                               Deputy Inspector General
                                 for Audit Services
                               Office of Inspector General

     SUBJECT:                  INFORMATION: Audit Report on the "I-MANAGE STARS
                               Implementation," Audit Report No.: OAS-L-05-02


     The purpose of this report is to provide you with the results of our audit of the Department of
     Energy's (Department) implementation of the Integrated Management Navigation System (I-
     MANAGE) program's Standard Accounting and Reporting System (STARS). The report
     follows up on the challenges to successful implementation of STARS we highlighted in our
    interim report on "The Department's Implementation of I-MANAGE STARS" (Audit Report
    No. OAS-L-04-19, August 2004). The audit methodology is described in an attachment to
    this report.

     INTRODUCTION AND OBJECTIVE

    STARS will replace the Department's legacy core financial systems. It will be the backbone
    of the Department's I-MANAGE initiative to provide a corporate-level system to achieve the
    President's Management Agenda for improved financial performance, expanded electronic
    Government, and budget and performance integration. In our August 2004 report, we
    identified a number of challenges to the successful implementation of STARS during the then
    scheduled October 2004 deployment and made a number of suggestions to resolve those
    challenges. Subsequently, the I-MANAGE Executive Steering Committee delayed STARS
    implementation until April 2005.

    The Department's planned mid-year implementation of STARS poses special challenges that
    could impact successful deployment of the system. In particular: (1) two separate
    accounting systems must be used to produce the consolidated financial statements; (2)
    accelerated reporting schedules imposed by the Office of Management and Budget provide
    only limited time to correct implementation problems; and, (3) the burden of auditing two
    separate systems of controls will severely stress both accounting and audit resources. Given
    these challenges, the purpose of this report is to highlight areas that, in our judgment, should
    be considered by the Executive Steering Committee as it evaluates future steps and related
    schedules. Our overall review of STARS will be completed as part of our audit of the
    Fiscal Year 2005 Consolidated Financial Statement Audit.



                                             SPrinted   with soy ink on recycled caper
 CONCLUSION AND OBSERVATIONS

While the Department has made progress resolving challenges to STARS implementation
since our interim report, our review disclosed several issues that may impact the successful
completion of the system. According to the STARS Project Team, recent test results have
shown that contractors can successfully upload data and most user acceptance issues have
been resolved. However, issues regarding testing, controls, and training need to be resolved
to help ensure a successful conversion to STARS by April 2005.

                                         STARS Successes

The project team has had several recent successes important to the mid-year deployment of
STARS. For example, according to the STARS Project Manager, the most recent conversion
of data files submitted by the 27 integrated contractors using the STARS Integrated
Contractor Interface were properly formatted and balanced. In addition, an outside consultant
completed an independent validation and verification (IV&V) of the STARS implementation
plan. The IV&V provided the project team with recommendations to further improve the
overall implementation strategy. In response to the IV&V, the STARS Project Team has been
divided into two teams: one team will focus on completing critical testing activities while the
other team will concentrate on deployment activities.

                                      Continued Challenges

Although improvements have been made, significant challenges remain that increase the risk
that the Department may not be able to successfully deploy a fully capable system on
schedule. Specifically, we noted that:

       *End-to-end integration testing to verify that data can be accurately passed between
        components has not been conducted. While user acceptance testing and verification
        testing within defined units has shown marked progress, the project team has not
        conducted significant integrated testing to verify that data can be accurately passed
        between components, particularly external elements. This testing was originally
        consolidated with user acceptance testing to accommodate a compressed
        implementation schedule. Project officials noted that more emphasis will be placed on
        integrated testing as the project moves forward.

   *    The project team has not identified the separate activities that external organizational
        components need to undertake for a successful implementation. While these activities
        have been compiled for the Department's internal STARS components, the details of
        system and non-system activities, timelines, and responsibilities for completion
        required at the contractor level have not been defined. Project officials stated that they
        planned to give more attention to the integrated contractors' internal schedules for the
        STARS deployment.




                                            2
           The STARS project lacks a consolidated baseline security configuration specifying
           detailed security policy settings, and does not have a process to monitor and track
           security patches. Responsibility for application security controls for STARS has been
           divided among the various project teams. Project officials stated that they have
           recently appointed an individual to oversee application security for the entire STARS
           project.

      *    Users to be trained for STARS have not been fully identified. Although the training
           curriculum and tutorials have been developed, the training schedule has been pushed
           back due to the delayed implementation and training rosters have not been reviewed or
           revalidated.

 Successful implementation of STARS is vital to the Department's ability to provide timely
 and accurate financial reports. In the recent past. problems with planning, testing, and
 training prevented the Western Area Power Administration from generating timely and
 accurate financial reports throughout 1999 and for most of 2000. In addition, the mid-year
 implementation will put significant strain on the Department's financial and accounting
 senrices organization as it attempts to transition to STARS.

SUGGESTED ACTIONS

in !ight of the above observations and concerns, the I-MANAGE Executive Steering
Committee should ensure the following actions are promptly undertaken:

      *   Develop and conduct well defined, end-to-end integration testing to ensure that data
          can be accurately passed between components. including external entities;

      *   Identify the separate activities that external organizational components need to
          undertake for a successful implementation, including both system and non-system
          activities, and provide timelines and responsibility for completion;

      o   Develop a comprehensive security baseline configuration and establish a process for
          continuous monitoring and tracking of security patches; and,

      *   Review and revalidate training rosters to ensure that all users to be trained for STARS
          have been identified.

.Vc ibnfrmed project management of our observations on December 17, 2004.

.\tt!lchment

cc:       Director, Office of Management Analysis. ME-2.5
          Director, Office of Corporate Financial Systems. MNE-13
          Team Leader, Audit Liaison, ME-100




                                             3
                                                                                       Attachment
  SCOPE AND METHODOLOGY

  The audit of the I-MANAGE STARS was initiated in May 2004 and is currently ongoing at
  the Department of Energy Office of Management, Budget and Evaluation at Headquarters and
  several field locations. To accomplish the audit objective, we:

     *   Held discussions with program managers and project officials at Headquarters and
         obtained documentation to gain an understanding of project management roles and
         responsibilities, and learn the history, status, and any problems associated with the
         project;

     *   Held discussions with officials at the Oak Ridge Operations Office, Oak Ridge
         National Laboratory, Y-12 National Security Complex, Sandia National Laboratory,
         and Lawrence Livermore National Laboratory to gain an understanding of their roles
         and responsibilities and their progress in preparation for system implementation; and,

     *   Obtained and reviewed project documentation at Headquarters and the Oak Ridge
         Reservation.

 The audit is being performed in accordance with generally accepted Government auditing
 standards for performance audits and includes tests of internal controls and compliance with
 laws and regulations to the extent necessary to satisfy the audit objective. Accordingly, we
Sevaluated the Department's implementation of the Government PerformanceandResults Act
 and determined that performance measures were established for the STARS system
 development project. Because our review was limited, it would not necessarily have
 disclosed all internal control deficiencies that may have existed 'at the time of our audit. We
 did not rely on computer-processed data to accomplish our audit objective. An interim
 briefing was held with project officials on December 17, 2004.




                                            4
DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


Memorandum
        DATE:   FEB 2 3 2005
    REPLY TO
     ATTN OF:   IG-34 (A04TG043)

    SUBJECT:    Final Report Package for the Audit on the "I-MANAGE STARS Implementation,"
                Audit Report Number: OAS-L-05-02
          TO:   George W. Collard, Assistant Inspector General for Audit Operations

                Attached is the required final report package on the subject audit. The pertinent details are:
                1. Actual Staff days:          141
                   Actual Elapsed days:        152
                2. Names of OIG and/or contractor audit staff:

                   Assistant Director:         Kevin Majane
                   Team Leader:                Dan Weeber
                   Auditor-in-Charge:          John Yi
                   Audit Staff:                Erin Cole
                                               Anthony Montoya
                                               Oliver Wong
                3. Coordination with Investigations and Inspections:

                    Investigations:            Tyler Smith (01/10/05)
                                               Reggie France and Randall Kizer (01/10/05 & 01/13/05)
                    Inspections:               Fatima Pashaei (01/10/05 & 01/13/05)



                                                      Ricke R. Hass, Director
                                                      Science, Energy, Technology,
                                                        and Financial Audits Division
                                                      Office of Audit Services
                                                      Office of Inspector General
                Attachments:
                1. Final Report
                2. Monetary Impact Report
                3. Audit Project Summary Report
                4. Audit Database Information Sheet
                            MONETARY IMPACT OF REPORT NO.: OAS-L-05-02


1. Title of Audit:         Audit'Report on the "I-MANAGE STARS Implementation"

2. Division:                Science, Energy, Technology, and Financial Audits Division

3. Project No.:             A04TG043

      1. Type of Audit:

       Financial:                                             Performance:       X
          Financial Statement                                   Economy and Efficiency               X
          Financial Related                                     Program Results
       Other (specify type):

5.
                                                                                                    MGT.      POTENTIAL
          FINDING                     COST                       QUESTIONED COSTS                 POSITION     BUDGET
                                   AVOIDANCE                                                                   IMPACT
(A)               (B)             (C)      (D)         (E)        (F)        (G)        (H)          (I)          (J)
                 Title           One    Recurring   Questioned   Unsup-    Unre-       Total      C=Concur      Y=Yes
                                 Time    Amount                  ported    solved   (E)+(F)+(G)   N=Noncon       N=No
                                         PerYear                                                   U=Undec
      Opportunities for                             Unknown
      Improvement



TOTALS--ALL FINDINGS




6. Remarks:               As of the final report, we were unable to identify a specific one time monetary impact
                          attributable to making improvements in the Department's management of the
                          development and transition of STARS.

7. Contractor:                                       10. Approvals:
8. Contract No.:                                     Division Director/Date:                                 ^6"
9. Task Order No.:                                   Technical Advisor & Date_                               o,
                                                Office of the Inspector General (OIG)
                                          Audit Project Office Summary (APS)
                                                                                                                                     Page 1
Report run on:                      February 17, 2005 5:17 PM


  Audit#: A04TG043                 Ofc:   ATA     Title: I-MANAGE STARS

                                                              S****Milestones ****
                                                 Planned           End of Survey               Revised             Actual


   Entrance Conference:.....                    12-AUG-04                               12-AUG-04                12-AUG-04
   Survey: ..................
   Draft Report:.............                   17-DEC-04                               14-JAN-05                11-JAN-05
   Completed (With Report):.                    30-SEP-04                               28-JAN-05                11-JAN-05     .(R
   ------------ Elapsed Days:                          49                                            169             152
                                                                                                     Elap. Less Susp:
   Date Suspended:                                                Date Terminated:
   Date Reactivated:                                              Date Cancelled:
   DaysSuspended(Cur/Tot) :                        (           )Report Number:          OAS-L-05-02
   Rpt Title:                                                     Report Type:          LTR         LETTER REPORT
   INFORMATION:            AUDIT REPORT ON THE "I-MANAGE STARS IMPLEMENTATION"


                                                                                                :
                                                 **** Audit Codes and Personnel                     ***:
   Class:           PER     PERFORMANCE
   Function: 003            ADP/INFORMATION
   MgtChall: 020            MANAGEMENT
   Site:           MRA      INFORMATION TECHNOLO                              AD:       530           MAJANE
                                                                             AIC:       796           YI
   SecMiss: CMT MULTI-REGION AUDIT                                           AIC:       796           YI
                                                                        Team Ldr:       713           WEEBER
   PresInit: IFP   CORPORATE MANAGEMENT
               Presnit:Tech                                             Te   Ad:        5
                                                                             Adv:       544              ACTON
                            IMPROVED FINANCIAL P
                                              .****           Task Information ~*       **


         Task No:
         Task Order Dt:                                           CO Tech. Rep:
         Orig Auth Hrs:                                           Orig Auth Costs:
         Current Auth:                                            Current Auth Cost:
         Tot Actl IPR Hr:                                         Tot Actl Cost:


                                                       ****       Time Charges ****

                       Emp/Cont Name              Numdays               Lyast Date
                        REINES, C                           0.8        21-AUG-04
                        WISNIEWSKI, T                       1.5        22-JAN-05
                        WONG, 0                             2.1        08-JAN-05
                        MONTOYA, A                          4.5        08-JAN-05
                        COLE, E                             9.4        0.8-JAN-05
                        WEEBER, D                       17.1           08-JAN-05
                        MOYNIHAN, J                     17.4           02-OCT-04
                        YI, J                           87.9           19-FEB-05


                                                        ***-Time       Charge    ****
                       Emp/ContNae          :     Numday           .     ast Date       : ..         -                     '
                          Total:                       140.7
                                                                                             Attachment 4


                           AUDIT DATABASE INFORMATION SHEET

1. Project No.: A04TG043

2. Title of Audit: Audit Report on the "I-MANAGE STARS Implementation"

3. Report No./Date: OAS-L-05-02, January 11, 2005

4. Management Challenge Area: Information Technology

5. Presidential Mgmt Initiative: Expanded Electronic Government
                                 Budget and Performance Integration

6. Secretary Priority/Initiative: Information Technology Management
                                  Project Management

7. Program Code: ME

8. Location/Sites: OMBE Headquarters in Germantown, MD; Oak Ridge Operations Office; Oak
   Ridge National Laboratory; Y-12 National Security Complex; Sandia National Laboratory;
   Lawrence Livermore National Laboratory

9. Finding Summary:

   This audit report contains our observations on the implementation of the STARS financial system.
   Although improvements have been made, significant challenges remain that increase the risk that the
   Department may not be able to successfully deploy a fully capable system on schedule. Specifically,
   we noted that:

          * End-to-end integration testing to verify that data can be accurately passed between
            components has not been conducted;
          * The project team has not identified the separate activities that external organizational
            components need to undertake for a successful implementation;
          * The STARS project lacks a consolidated baseline security configuration specifying
            detailed security policy settings, and does not have a process to monitor and track
            security patches; and,
          * Users to be trained for STARS have not been fully identified.

   In light of these observations and concerns, we identified several suggested actions that the I
   MANAGE Executive Steering Committee should ensure are promptly undertaken.

10. Keywords:     I-MANAGE, STARS, Financial System, System Development
